                       U.S. SMALL BUSINESS ADMINISTRATION 

                           OFFICE OF INSPECTOR GENERAL 

                               WASHINGTON, D.C. 20416 



                                                                AUDIT REPORT
                                                          Issue Date: March 20, 2006
                                                          Report Number: 6-16



To:        James E. Rivera
            Associate Administrator for Financial Assistance

           /S/ original signed
From:      Robert G. Seabrooks
            Assistant Inspector General for Auditing

Subject: Audit of an SBA Guarantied Loan to [FOIA Ex. 6]

        Attached is a copy of the subject audit report. The report contains one finding and
recommendation addressed to you. Your response and the response of the lender have been
synopsized and included in the report. Based on these responses, we have removed the sections
regarding the poor character of the borrower and ineligible use of proceeds from our final audit
report. We have also reduced the recommended recovery amount from $155,651 to $18,992.

        The recommendation in this report is subject to review and implementation of corrective
action by your office in accordance with existing Agency procedures for audit follow-up. Please
provide your management decision for the recommendation to our office within 30 days of the
date of this report using the attached SBA Form 1824, Recommendation Action Sheet.

       Should you or your staff have any questions, please contact Stephen Seifert, Director,
Credit Programs Group, at 703-487-[FOIA Ex. 2].

Attachment

cc: Acting IG
                          AUDIT OF AN SBA GUARANTIED LOAN TO

                                             [FOIA Ex. 6]

                                      North Little Rock, Arkansas 


                                              March 20, 2006 





The finding in this report is the conclusion of the Office of Inspector General’s Auditing Division based on
testing of SBA operations. The finding and recommendation are subject to review, management decision,
and corrective action in accordance with existing Agency procedures for follow-up and resolution. This
report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
                               AUDIT OF AN SBA GUARANTIED LOAN TO
                                           [FOIA EX.6]

                                             North Little Rock, Arkansas


                                                     Table of Contents

                                                                                                            Page

BACKGROUND ......................................................................................................1

AUDIT OBJECTIVE AND SCOPE.......................................................................1

RESULTS OF AUDIT.............................................................................................2

Finding and Recommendation

The Lender Over Disbursed a CAPLines Loan and Received
an Overpayment of the Guaranty ..............................................................................2

Appendices

     A. Lender Response

     B. SBA Management Response

     C. Distribution List
                                        BACKGROUND

        The Small Business Administration (SBA) is authorized under Section 7(a) of the Small
Business Act to provide financial assistance to small businesses in the form of government-
guarantied loans. SBA loans are made by participating lenders under an agreement
(SBA Form 750) to originate, service, and liquidate loans in accordance with SBA regulations,
policies, and procedures. SBA is released from liability on a loan guaranty, in whole, or in part,
within SBA’s exclusive discretion, if a lender (i) failed to comply materially with SBA
regulations, the loan guaranty agreement, or the loan authorization, (ii) did not make, close,
service, or liquidate a loan in a prudent manner, or (iii) did not disclose a material fact to SBA
regarding a guarantied loan in a timely manner.

       During an on-going review of the guaranty purchase process at the National Guaranty
Purchase Center (Center) in Herndon, Virginia, we identified a problematic loan made by First
Commercial Bank to [FOIA Ex. 6] (borrower), which is the subject of this audit report. In
November 1998, First Commercial Bank was acquired by Regions Bank and Regions Bank
became responsible for servicing and liquidating SBA guarantied loans approved by First
Commercial Bank (lender).

        The loan was part of a sample selected from a universe of 7(a) loan purchase requests
processed at the Center by Headquarters personnel from the Office of Financial Assistance
(OFA). The loan was processed as a regular 7(a) guarantied loan; therefore, SBA was
responsible for determining if the borrower met eligibility and credit requirements based on
documentation submitted by the lender. The lender was required to service and liquidate the
loan in accordance with SBA regulations, policies, and procedures.

         The loan (loan number 150-380-4006) was a $175,000 Contract CAPLines loan that was
approved on August 22, 1997. The purpose of the loan was to pay for labor and materials on
contracts that were assigned as security for the loan. The loan was disbursed from November 21,
1997 through August 28, 1998. The borrower defaulted on September 4, 1998, one week after
the final loan disbursement. The lender requested purchase of the loan on June 10, 2001 from
the Arkansas District Office after completing loan liquidation. As of October 7, 2003, the
district office had not received sufficient documentation from the lender for purchase. The loan
was transferred to the Center on February 12, 2004 and the guaranty was purchased for $113,221
on April 29, 2004.

                                  AUDIT OBJECTIVE AND SCOPE

        The objective of the audit was to determine if the lender originated, serviced, and
liquidated the purchased loan in accordance with SBA rules and regulations. During the audit,
we examined loan files maintained by SBA and the lender, interviewed SBA officials in OFA,
and interviewed lender officials. The audit was conducted during June and July 2005 in
Herndon, Virginia, in accordance with Government Auditing Standards.




                                                 1

                                    RESULTS OF AUDIT


Finding 1 – The Lender Over Disbursed a CAPLines Loan and Received an Overpayment
            of the Guaranty

        The lender over disbursed the CAPLines loan on two occasions and SBA used the
incorrect transcript to determine the purchase amount. These deficiencies were not detected
during the guaranty purchase process and, as a consequence, SBA erroneously paid the lender
$18,992 when it purchased the guaranty for $113,221.

       The loan authorization stated that no advance shall be made if, as a result of such
advance, the total principal amount outstanding would exceed $175,000. On two occasions,
however, the lender made advances that resulted in an outstanding principal balance that
exceeded $175,000. As a result, the outstanding principal balance at the time of purchase was
$138,260 rather than $121,604, or $16,656 higher than it should have been.

       Additionally, when computing the guaranty purchase amount, SBA mistakenly used a
September 3, 2003 transcript which showed the principal loan balance was $146,273. The lender
submitted a revised transcript on October 1, 2003 which showed the principal loan balance had
been reduced to $138,260. The revised transcript should have been used to compute the
guaranty purchase amount.

       As a result of these deficiencies, SBA overpaid the lender by $18,992 when it purchased
the guaranty. This includes a principal overpayment of $18,502 (($146,273 x 75% SBA
guaranty) - ($121,604 x 75% SBA guaranty)) and an interest overpayment of $490 (($18,502 x
10.75% interest rate)/365 day basis = $5.45 per day x 120 days = $653.91 x 75% SBA guaranty).

RECOMMENDATION

       We recommend that the Associate Administrator for Financial Assistance, take the
following actions:

1. 	 Seek recovery of $18,992 from the Regions Bank on the guaranty paid for loan number
     150-380-4006.

Lender Response

        The lender stated that the issues pointed out in the draft report were correct and not
disputable. The lender did not specifically respond to the section in our draft audit report
concerning the poor character of the borrower. With regard to the ineligible use of proceeds, the
lender stated that it appears both SBA and the bank dropped the ball in the front end approval of
the loan. The lender claimed there was no intentional misrepresentation by the bank on the loan
request. SBA did not question how the proceeds from the existing loans being refinanced were




                                                2

used and it appears the former lender did not understand that SBA loans could not be extended to
cover tax obligations. The lender concluded that what should have been a primary point of
discussion was missed by SBA and the bank.

        The lender agreed that the over disbursement of the CAPLines loan was a mistake on its
part. The lender currently does not extend CAPLines loans and does not intend to in the future
due to the complications from a monitoring standpoint. The lender’s response is included as
Appendix A.

SBA Management Response

        SBA Management stated that character was not an issue with respect to the loans because
the borrower had cured his prior withholding taxes by paying them off with a loan obtained from
the lender approximately one year before the SBA loans were made. SBA management stated,
“the borrower’s corrective action diminished sufficiently any character concerns related to the
previously delinquent taxes.” SBA Management also stated that both the lender and SBA shared
the responsibility of obtaining the necessary loan information since the loan was processed as a
regular 7(a) loan.

        SBA Management does not consider the lender’s use of proceeds to refinance a loan
made to repay delinquent withholding taxes one year prior to the SBA loan to be an ineligible
use of loan proceeds. SBA Management agreed that the use of loan proceeds to pay delinquent
withholding taxes was prohibited in SOP 50 10 3, but stated the policy did not address the issue
of direct versus indirect uses of proceeds. Since the lender did not directly repay the delinquent
withholding taxes with SBA loan proceeds, but rather refinanced a loan made approximately one
year earlier for this purpose, SBA Management does not support recovery of the guaranty
payment. SBA Management stated “the previous loan made by the lender that was used to repay
the withholding taxes was sufficiently removed in time so as not to contravene the SBA
prohibition.”

        SBA Management agreed that SBA processed the purchase for loan 15038040-06 using
the incorrect transcript of account and stated the resulting overpayment of the purchase amount
was $6,202. SBA Management, however, did not identify an over disbursement of the loan by
the lender and suggested that the OIG may have used the incorrect transcript of account to
identify the over disbursement. SBA Management’s response is included as Appendix B.

Evaluation of Lender and SBA Management Responses

        Based on the above responses, we have removed the sections regarding the poor character
of the borrower and ineligible use of proceeds from our final audit report. We believe the lender
should have notified SBA of the borrower’s prior withholding tax delinquencies and it should
have been considered a character issue. However, since SBA procedures state such
delinquencies “should be considered from a character standpoint” (Emphasis added) and SBA
Management has taken the position that the borrower’s corrective actions diminished sufficiently
any character concerns, we have removed this section from the report. We also believe SBA
procedures regarding ineligible uses of proceeds should apply to the indirect use of proceeds



                                                3

regardless of the period of time that lapsed since the original loan was made by the lender. Since
SBA procedures did not expressly state this and SBA Management has taken the position that the
previous loan was sufficiently removed in time so as not to contravene SBA prohibition, we have
removed this section from the report.

        We continue to question the total overpayment of the guaranty for the CAPLines loan due
to the lender’s over disbursement of the loan and SBA’s use of the incorrect transcript for
purchase. The lender agreed that the CAPLines loan was over disbursed and contrary to SBA
Management’s suggestion that we used the incorrect transcript of account, the OIG correctly
identified the lender’s over disbursement. The transcript provided by the lender at the time of
purchase reflected the disbursements and repayments for 10 sub-loans with outstanding principal
loan balances at the time of default and did not reflect the disbursements and repayments for all
25 sub-loans made under the CAPLines loan. In order to identify the lender’s over
disbursement, we prepared a detailed spreadsheet of all chronological disbursements and
repayments for the 25 sub-loans made under the CAPLines loan. No such spreadsheet was
provided by the lender or prepared by SBA during the purchase review in order to identify this
deficiency.

        SBA Management’s comments with regard to the overpayment of the guaranty that
resulted from SBA’s use of the incorrect transcript were responsive to the issue presented in our
draft report.

       Based on the above, we reduced our recommended recovery amount from $155,561 to
$18,992.




                                                4

                                                                      ,..Sck.<.
                                                                       ;' . .               -.
                                                              q*rgihi:
                                                              .   .
                                                                    ",;&$%ind& A
                                                                                  '.

                                                                            Page 1 of 2
                                                                                       ;




 (   RKAblCIAL CORP.


 Ptc;unber 14, ZOOS
 Stephen Seifert
 O h ofLaspectw General
 1145 Hemdon Parkway
 Suite 900
 Hsmdon, VA 20170

 Dew Mr. Seifd:
Attached ie a response to the audit y o n for the loam extmded toC                         JThcfim
&it was extended September 26, 1997 for $170,100, The second &it                           was for a
$175,000 CAPLhe mended on November 21,1997.

The d i t s refercnccd above wore extended by First C2nrmeroia.l Bank which was
acquired by Regions in Nwembrrr of 1998. The original lender is no longer With the
bank At the time the l o w were e~teodadFirst Commercial Baak did not have a
 formalized SBA approval proms nor did Regkine bank when they acquired F h
 Comercia1 BBnk. Slnce the Ida u no langer with the ba* I can only d e
a~sumptiomon her though proass on the bans. I amme she did nat uadtcsgnd that
SBA loans could not be wrtendud to cover tax obli$atiana X oould not tall k m tbe file
that it was discused when thc loan was submind to the SBA for approval. Tbcse were
no disaruiods Born the SBA side on what the entire p r o d s Born the e x i s t i i o that~            ~
wcrc be rdjnancod were us& for. Since this was rbt majority of the loan pro&             I
would have thought this m i d have bcul the primaty point of dimmion batween the
'SBA and out lender. I could not find mywhere in the file documentation where t k o
was misrdpzwsentation by our lender on what dl the proceeds ofaur d i n g Iom were
used for. Wbat should have been a primary point of discussion a p p m t6 havc berm
missed by the SBA and tht: bank I do und-d       that this is a violatitm of SBA policy;
but it appears that both sides shm in the blame for this and w a s not intentional on OUT
part-
The second issue h t wlis pointed out in the audit was tha overpayment on ~k  CAP line
Afier review of the documWon I would a p that this w a ~      a mistake oo our put. We
w e a t l y do not enand any CAP line producb nor do wo intend to extend them in the
fim4 We are only participating in the SBA e x p t s and 7A (term baa) progarps.
product is fhm complicated eom a monitoring rtandpoiM to dctively partidpats in

Bill Ned was the local spwials assets officer that handled the liquidation of the above
ref'acDCgd requem and also the roqueat fbr payment afpanmty. Since ?he loam were
originally approved by the SB& Bill went about the process with the ~5sumptionthat the
HRR-l$-2E@6     i4:lS             ZQ2BWS13                                                                     P. 02/86

                                                                                              Appendix A
                                                                                               Page 2 of 2




               loans were closed in carnpli~ce with SBA policy. There was no intentional
               misrepresentation an his part on the work perfarmed to obtain payment of the guarsnty
               by the SBA

               We have just completed tho find muversion in the merger of Union Planter6 Bank and
               Regions Bank. We wnreatiiy haw, a &Uy opdonirl SBA department located in
               NathviUe, Tenmsee. All SBA requests less tben $1,000,000 am ctatrally approved by
               this unjt b y m p s b igmmr tbm fl,OOO,OOO arc approved by l d eredi tmitl. All
               SBA dowmentation i s handled by the unit in Nash~iUe,~Looallcadrraaodcqpc
              ddm          SBA disit,~'Iity~      miZ i n t i o n e d a i wedonot actively partidpate in the
                                                ils
               C.QP line program Based on ow current policy and p d w a the issue8 addressed in
               this audit will not occur in the future. T&e SBA unit also has an SBA liquidation
               specialist that assists the local spta'd assets officers on SBA problem accour~. All
               requests firr payment of guaranty are handled by the SBA liquidation specialist.

               Thc iswas pointed out in audit are comect and not dirputable. It does appeat tbat both the
               SEA and b d dropped the ball in the front end approval of this request. B e d on
               review of file documentation here docs not appear to be my intentions1
               misreprasamtionby the banlc on this request, only lack of sound credit judgment on both
               sides. the liquidation w u hrrndltd based on the assumption that the p r o d s were used
               fbf eligible purposes. As outlined above this type emf should not o m m tho hitre.



              Pete Peterson
              Senior Vice President
              Re@ons in&. Corporation
al     q36~0dmd      a q W Q S I P &pa[ayl q T be^ IOU ptp L66 1 igdny U! w      e
        WOI S!LP O W BY1 P        rr! € 01 05 afk3!.0d V0S =SapCrel $0 Xr!dq~=odoar
               X
               m
               l        -4                  arffJ& #!N*a  gcw m ~ f ;rytblWi sa.18~
PFoa W               P  @     lmJQPrm P W aq         ~ -1 S- Ffi *gl~Vb       WS
   mm aeo~a q ssaoard al L ~ = u uao.wmq @a[SLDb ! w q o ~ o&g!qpodsat a q
 P q g V B Plcsptrel'9 rflaq ' m a 0 PqSB 1 UJ l)amd mot VaS aYl a              m
   'w .eWm s,nago a&oi w a q u!~ p q m r s 'wMattoqaqa oa agsup9 pnwlsqm
       r n v d w3 a=qJo            WL m JwQ        D! 000'6851-!A-\
   rnM -P ooo8Ls%4WwdfhJ                  m
                                  WQISPIs sPta
                                             E Jf4V P gOdtriSSOEl
      Y E S wpm agm sea01 vgs ag) mpq rm4 auo cCp@updd8&pqaqa urog
m 9 0 aPol LPW =Jm w hw4~ - P B ~ ! I ~ oWIW!M      r-nbol[op spl v
 -q     arg m qsmq asilq QI 3mfm.1gp an? m 61.wazrn~  aMggq p u op OM
                                                                    -
                                                                    :
                                        *uop!q~ad
                                                yas q o a u ) n o a QI100se
  as am ui pa~omr,~     X p u q ~ g WM
                                    p ~ ~sax14%rqppqg~      qa
                                                             p ads oa porn
                                                               -                rnMPWJ
      a 4 Xq irpew mI m o Q q ' ~n u ~ 0 'qSta gq.Lq P O ~ ~ Q V(LS    ~ O X ~wNUq5
03 s-             mqz prre x
                           ' nw mq pn!mcds8h J! W h ~ W J m                    m-
   9Wd=w= ~opuai rna ~ &p p w a a* 'q                    aw      YES     08 ro@ lgn!apw~
         -
     -qpw=prralwgq~qaq?& U - ~ Y P J ~ I ~ ~ ~ ~ ~ = I I J O ~ ~ -
wddm laa op ana +aaodmdsryl aqj n p a d oao Xpmqxardd~ap'u mol Q p - u p
            =w m    q'w=d woy w!jqpoalan ~ s ~ \ q m               l fb
                                                                      i q* A - A ~ P
           PIP PI w a q s w u j o                    m m ! -r=q~30        ansq @ q ~w
        WPIP h                                                                  W * W P
 &d 01 ~paaooJdU801JO 8sn a w WQ
                                    -
                 knd ay) W'€01 0s d0S W Pal19.?o(d~ ~ ~ W % P T O ¶ ' Q ~
                                               ah        W;rO-BJ        am    s' s U O ~ n 3 ~
                                               rPyr.PWW O W P!Wo UILQI V8S P W w P p
      3WuF ol ~ ! l ~ o mg!4.n[OJd
                              s @
         m q 2rryqa~6q Lqad IQ xg poddms e a rd p a aaxw Burp~oqq* luanbqap
  hd m             d W J O am .     )  rfJo!$!%qord
                                             e 601: W W W a 010 .spaa3& QW
     JO asn elqPgarq ua aq a ma1 ~5 q 01 mpd              euo sm 8qp1oqqipwsnbupp
         Lsdar ap8U          8 @3URmN     OJ ~         d         ~     Up@Wa
                                                                         o      I o n 8M
                                                               :~!lY!?mz
                                                                                                               Appendix C


                                     AUDIT REPORT DISTRIBUTION


Recipient                                                                                                   No. of Copies

Associate Deputy Administrator for Capital Access ................................................ 1 


General Counsel ........................................................................................................ 3 


Deputy General Counsel ........................................................................................... 1 


United States Government Accountability Office .................................................... 1 


Office of the Chief Financial Officer 

Attention: Jeff Brown............................................................................................... 1 

